APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-2548
___________________
James S. Harris
Petitioner - Appellant
v.
Sherie Korneman, Warden, Western Missouri Correctional Center
Respondent - Appellee
______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Missouri - St. Joseph
(5:17-cv-06003-GAF)
______________________________________________________________________________
JUDGMENT

Before LOKEN, SHEPHERD, and GRASZ, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. Appellant’s motion for leave to proceed
on appeal in forma pauperis is denied as moot.
The appeal is dismissed.
January 07, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans
Appellate Case: 19-2548

Page: 1

Date Filed: 01/07/2020 Entry ID: 4868439

1a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
ST. JOSEPH DIVISION
JAMES HARRIS,
Petitioner,
vs.
SHERIE KORNEMAN,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 17-06003-CV-SJ-GAF

ORDER
Now before the Court is Petitioner James Harris’s (“Petitioner”) Petition for Writ of Habeas
Corpus filed pursuant to 28 U.S.C. § 2254, requesting the Court grant him relief for violations of
his Fourteenth Amendment Due Process rights. (Doc. # 1). Respondent Sherie Korneman
(“Respondent”) opposes. (Doc. # 9). For the reasons set forth below, Petitioner’s Petition is
DENIED.
DISCUSSION
I.

FACTS
Petitioner was convicted by a jury on May 4, 2010 of one count of assault in the first degree

(Count 1), armed criminal action (Count 2), and assault in the third degree (Count 3). (Record on
Appeal, 337:25-338:20). Prior to trial, Petitioner entered a guilty plea to a misdemeanor for
stealing less than $500.00 (Count 4). (Id. at 1:21-4:8). On August 26, 2010, the trial court
sentenced Petitioner to twelve years imprisonment on Count 1 and four years imprisonment on
Count 2 to run consecutively for a sixteen-year aggregate sentence. (Id. at 364:23-366:4).
Petitioner was sentenced to 180 days in county jail on the remaining misdemeanor convictions,
sentences to run concurrently, with credit for time served. (Id.). On August 9, 2011, Petitioner’s

1
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 1 of 9

2a

APPENDIX B
convictions and sentences were affirmed on direct appeal. State v. Harris, 344 S.W.3d 301 (Mo.
Ct. App. 2011) (mem.). Petitioner did not seek rehearing and transfer to the Missouri Supreme
Court. (Doc. # 1, p. 6). In Missouri, direct review of a conviction ends fifteen days without action
from a petitioner after the most recent ruling. Mo. Sup. Ct. R. 84.17(b). As such, Petitioner’s
direct appeal became final by the expiration of time seeking further review on August 24, 2011.
Petitioner filed a post-conviction relief motion on November 7, 2011. (29.15 Appeal Legal
File, p. 7). After an evidentiary hearing, the trial court denied the amended post-conviction relief
motion on December 9, 2013. (Id. at p. 141). Petitioner then had forty days after judgment to file
his notice of appeal. Mo. Sup. Ct. R. 75.01, 81.04(a). Petitioner did not file a timely notice of
appeal within that time period. The forty-day period expired on January 18, 2014. Petitioner filed
a motion to file a late notice of appeal on October 24, 2014. (Doc. # 9-13). The Missouri Court
of Appeals granted this motion on November 5, 2014. (Id.). On April 20, 2016, the Missouri
Court of Appeals issued a mandate upholding the trial court’s denial of post-conviction relief,
which ended Petitioner’s state post-conviction review. Harris v. State, 484 S.W.3d 830 (Mo. Ct.
App. 2016) (mem.). Petitioner filed his federal writ of habeas corpus on January 19, 2017. (Doc.
# 1).
II.

LEGAL STANDARD
Under the Antiterrorism and Effective Death Penalty Act (“AEDPA”), a federal writ of

habeas corpus must be filed within one year from “the date on which the judgment became final
by conclusion of direct review or the expiration of time for seeking such review.” 28 U.S.C. §
2244(d)(1)(A). “The time during which a properly filed application for State post-conviction or
other collateral review with respect to the pertinent judgment or claim is pending shall not be
counted toward any period of limitation . . . .” 28 U.S.C. § 2244(d)(2). “[A]n application [of post-

2
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 2 of 9

3a

APPENDIX B
conviction review] is pending so long as the ordinary state collateral review process is in
continuance–i.e., until the completion of that process.” Carey v. Saffold, 536 U.S. 214, 219-20
(2002) (internal quotation marks omitted). Once a petitioner’s deadline for filing a notice of appeal
passes without action by the petitioner, the state post-conviction application ceases to be pending.
Streu v. Dormire, 557 F.3d 960, 967 (8th Cir. 2009). The one-year statute of limitations may be
equitably tolled “only if the movant shows: ‘(1) that he has been pursuing his rights diligently, and
(2) that some extraordinary circumstance stood in his way’ and prevented timely filing.” Holland
v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)).
Both elements must be independently satisfied to equitably toll the statute of limitations.
Menominee Indian Tribe of Wisc. v. United States, -- U.S. --, 136 S. Ct. 750, 756 (2016).
III.

ANALYSIS
Respondent contends that Petitioner’s writ of habeas corpus is barred by the statute of

limitations. (Doc. # 9, pp. 3-5). The Court agrees. The statute of limitations first began to run on
April 24, 2011, when the time to seek direct review ended on Petitioner’s case. 28 U.S.C. §
2244(d)(1)(A). Seventy-five days passed from this date to November 7, 2011, when Petitioner
filed his motion for post-conviction relief. The statute of limitations was tolled from that date to
January 18, 2014, the date which the time ran out for Petitioner to file a timely notice of appeal of
the trial court’s denial of his post-conviction motion. 28 U.S.C. § 2244 (d)(2); see Streu, 557 F.3d
at 967 (holding that a petitioner’s post-conviction application ceases to be pending when the
deadline for filing a timely notice of appeal passes without action). The one-year statute of
limitations was again tolled on November 5, 2014, when the Missouri Court of Appeals granted
the motion for a late notice of appeal. See Carey, 536 U.S. at 219-20 (explaining that a state postconviction remains pending until a final resolution in the proceeding has occurred). Tolling ceased

3
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 3 of 9

4a

APPENDIX B
on April 20, 2016, and the statute of limitations ran for 274 days until January 19, 2017, when the
pending writ was filed in this Court. From the date to seek direct appeal ceased on August 24,
2011, to the date the writ was filed, January 19, 2017, 640 untolled days passed. Based on this
timeframe, the writ is untimely, thus barred by the statute of limitations.
Petitioner does not dispute that the time elapsed between the expiration of the time to take
a timely appeal, January 18, 2014, and the date the court of appeals granted his motion to file a
late notice of appeal, November 5, 2014, does not constitute statutorily tolled time under AEDPA’s
statute of limitations. (Doc. # 16, p. 2). Rather, Petitioner asks the Court to equitably toll the
statute of limitations during that time pursuant to Holland. (Id. at pp. 2-10). Petitioner does not
seek to have the other time periods tolled. (Id.).
For his state post-conviction proceeding, Petitioner was first represented by state-appointed
counsel.

Petitioner subsequently hired private counsel Dan Ross and co-counsel Bryan

Woehlecke. (Doc. # 16-1, p. 1). Retained counsel did not schedule an evidentiary hearing until
one year and four months after making their entries of appearance when the case was placed on
the dismissal list for lack of prosecution. (Doc. # 9-7, p. 4). An evidentiary hearing was held on
September 12, 2013. (Id. at p. 5). The trial court denied the post-conviction relief motion on
December 9, 2013. (Id. at p. 141). Neither Mr. Ross nor Mr. Woehlecke advised Petitioner that
his post-conviction motion had been denied or that he had 30 days to file a timely motion for
appeal. (Doc. # 16-1, p. 1). Petitioner states that the earliest he learned of the denial of his motion
was in June 2014. (Id.). Petitioner states that once he learned of the dismissal, he contacted his
family, who began looking for new counsel. (Id.). Petitioner retained Kent Gipson to file his
motion for late notice of appeal. (Id.). Petitioner asserts that the failure of Mr. Ross and Mr.
Woehlecke to inform him that his motion was denied and that there was a 30 day deadline to file

4
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 4 of 9

5a

APPENDIX B
a timely notice of appeal amounted to attorney abandonment and but for these actions, a timely
notice of appeal would have been filed but-for this failure to communicate. (Doc. # 16, pp. 5-6).
The Supreme Court in Holland instructed that equitable powers of a court should be applied
on case-by-case basis rather than pursuant to a bright-line rule. Holland, 560 U.S. at 649-50.
Additionally, courts are to look to similar cases and draw upon existing precedent when evaluating
cases concerning a court’s equitable powers. Id. at 650. Eighth Circuit precedent provides that
the use of equitable tolling should be “guarded and infrequent, lest circumstances of individualized
hardship supplant the rules of clearly drafted statutes.” Earl v. Fabian, 556 F.3d 717, 722 (8th
Cir. 2009) (citing Flanders v. Graves, 299 F.3d 974, 976 (8th Cir. 2002)).
“The diligence required for equitable tolling purposes is reasonable diligence, not
maximum feasible diligence.” Holland, 560 U.S. at 653 (internal quotations omitted). “Equitable
tolling should only apply where the petitioner or movant has demonstrated diligence in pursuing
the matter.” United States v. Martin, 408 F.3d 1089, 1095 (8th Cir. 2005) (citation omitted).
Petitioner asserts he diligently pursued his rights in this case because filed his initial state postconviction relief petition pro se. (Doc. # 16, p. 5). Additionally, Petitioner contends that he
contacted his family as soon as he found out his state post-conviction petition had been dismissed.
(Id. at 5-6). Petitioner also states that Mr. Gipson filed a late notice of appeal and asserted in that
notice that but-for the delay in finding out about the dismissal of his case, Petitioner would have
filed a timely notice of appeal. (Id. at 6).
Petitioner cites Holland, where the Supreme Court found that the petitioner acted with
reasonable diligence when he wrote his attorney numerous letters requesting information and
providing direction; contacted state courts, state court clerks, and the state bar association
repeatedly in an attempt to have his attorney removed from the case; and prepared his own habeas

5
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 5 of 9

6a

APPENDIX B
petition and filed it on the very day he discovered he was out of time. (Id. at 4); Holland, 560 U.S.
at 653. Petitioner also cites Martin, where the Eighth Circuit found that the petitioner diligently
pursued his rights where he “hired counsel well ahead of the deadline, ‘did everything in [his]
power to stay abreast of the status of his case,’ provided original documents to his attorney to assist
with the motion, filed a complaint with the state bar, and filed motions with the district court
seeking an extension of time and the return of documents submitted to the attorney.” Martin, 408
F.3d at 1095.
The evidence presented by Petitioner fails to display that he pursued his rights with
reasonable diligence. Unlike the petitioners in Holland and Martin, Petitioner does not show that
he attempted to contact his attorneys during the time he did not hear from them. Nor did Petitioner
attempt to contact the trial court, any court clerk, or the state bar association. Petitioner did not
prepare his own habeas petition or make any filings immediately after learning his state postconviction motion was dismissed.

In fact, no filing was made until November 5, 2014,

approximately five months after Petitioner learned his case had been dismissed by the trial court.
See Earl, 556 F.3d at 724 (explaining that even with delayed notice of a judgment, a petitioner did
not pursue his rights diligently when he had approximately eight months to file within the statute
of limitations to file a petition). But see, Holland, 560 U.S. at 653 (finding that petitioner acted
with reasonable diligence, in part, because he filed his federal habeas corpus petition the day he
learned his state post-conviction proceeding had been final). While Petitioner asserts that it would
have been impossible to file a timely federal writ of habeas corpus because the one-year statute of
limitations had run by the time his state post-conviction proceeding ended on April 20, 2016, he
cites no act that illustrates he pursued his rights with reasonable diligence before filing a late notice
of appeal before November 5, 2014 apart from contacting his family in June 2014. As such, there

6
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 6 of 9

7a

APPENDIX B
is insufficient support for the proposition that Petitioner pursued his rights with reasonable
diligence in this matter. See Muhammad v. United States, 735 F.3d 812, 817 (8th Cir. 2013)
(providing that a petitioner did not reasonably pursue his rights despite a delay in notice when he
did not file the applicable post-conviction motion immediately and “the time for filing the motion
may have expired in the interim between his learning of the deadline and his submission of the
motion”).
Petitioner has failed to show he pursued his rights with reasonable diligence. Because
Petitioner did not pursue his rights with reasonable diligence, the second element of Holland is
unsatisfied. Because the second Holland element was not met, the court need not address
Petitioner’s arguments regarding the first Holland element. See Menominee Indian Tribe of Wisc.,
136 S. Ct. at 756 (providing that a petitioner must satisfy both elements of equitable tolling to
allow a court to toll the statute of limitations); Muhammad, 735 F.3d at 816 (explaining that even
if a petitioner could show extraordinary circumstances under Holland, a failure to act with
reasonable diligence prevents a court from equitably tolling the statute of limitations). As the
reasonable-diligence element is unsatisfied, the Court will not equitably toll the one-year statute
AEDPA statute of limitations. Therefore, Petitioner’s writ is time barred by the one-year of statute
of limitations provided by AEDPA. 28 U.S.C. § 2244(d).
IV.

EVIDENTIARY HEARING AND CERTIFICATE OF APPEALABILITY
“Evidentiary hearings in habeas proceedings are barred unless the petitioner ‘was unable

to develop his claim in state court despite diligent effort.’” Wright v. Bowersox, 720 F.3d 979, 987
(8th Cir. 2013) (quoting Williams v. Taylor, 529 U.S., 420, 437 (2000)). In fact, the district court
can only review the record developed in the state courts except when the petitioner “shows that his
claim relies upon a new, retroactive law, or due diligence could not have previously discovered
the facts.” Cox v. Burger, 398 F.3d 1025, 1030 (8th Cir. 2005) (citing 28 U.S.C. § 2254(e)(2)).
7
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 7 of 9

8a

APPENDIX B
“[I]f the record refutes the applicant’s factual allegations or otherwise precludes habeas relief, a
district court is not required to hold an evidentiary hearing.” Schriro v. Landrigan, 550 U.S. 465,
474 (2007). “‘[T]he decision to grant such a hearing rests in the discretion of the district court.’”
Williams v. Norris, 576 F.3d 850, 860 (8th Cir. 2009) (quoting Schriro, 550 U.S. at 468). Here,
Petitioner fully developed his claims in the state courts. Petitioner also does not rely on a new,
retroactive law, and he does not allege any newly discovered facts. Thus, the Court is barred from
holding an evidentiary hearing in this matter.
“To grant a certificate of appealability, [Petitioner must make] a substantial showing of the
denial of a federal constitutional right.” Cox v. Norris, 133 F.3d 565, 569 (8th Cir. 1997). To
make a substantial showing, the petitioner must demonstrate “that reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a different manner
or that the issues presented were adequate to deserve encouragement to proceed further.” Slack v.
McDaniel, 529 U.S. 473, 483-84 (2000) (internal quotation marks and citation omitted). Here,
Petitioner has not established that reasonable jurists could debate whether his petition should have
been resolved differently based upon the law of equitable tolling in the Eighth Circuit and the facts
of this case. Further, Petitioner has not established that the issues he raised deserve encouragement
to proceed further.
CONCLUSION
Petitioner’s writ of habeas corpus is time-barred by the statute of limitations established in
AEDPA. Petitioner has failed to demonstrate he has pursued his rights diligently in this matter,
thus preventing the Court from equitably tolling the statute of limitations pursuant to Holland.
Accordingly, for these reasons and the reasons stated above, Petitioner’s Petition for Writ of
Habeas Corpus is DENIED, an evidentiary hearing is barred, and no certificate of appealability

8
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 8 of 9

9a

APPENDIX B
shall be issued.
IT IS SO ORDERED.
s/ Gary A. Fenner
GARY A. FENNER, JUDGE
UNITED STATES DISTRICT COURT
DATED: December 4, 2018

9
Case 5:17-cv-06003-GAF Document 20 Filed 12/04/18 Page 9 of 9

10a

